                             Office of Inspector General
                            Corporation for National and
                                     Community Service




             AUDIT OF THE
   CORPORATION FOR NATIONAL AND
 COMMUNITY SERVICE’S FISCAL YEAR 2007
  NATIONAL SERVICE TRUST SCHEDULES

           Audit Report Number 08- 02




                     Prepared by:

             CLIFTON GUNDERSON LLP
                11710 Beltsville Drive
              Calverton, Maryland 20705




This report was issued to Corporation management on November 14, 2007.
                           OFFICE OF INSPECTOR GENERAL
                                         November 14, 2007


TO:            David Eisner
               Chief Executive Officer

FROM:          Gerald Walpin (signature on file)
               Inspector General


SUBJECT:       Fiscal Year 2007 National Service Trust Schedules, OIG Audit Report Number
               08-02

Attached is the Independent Auditor’s Report on the Fiscal Year 2007 National Service Trust
Schedule of Financial Position, and the related schedules of Operations and Changes in Net
Position, Budgetary Resources and Trust Obligations (Schedules). We contracted with the
independent certified public accounting firm of Clifton Gunderson LLP to audit the financial
statements of the Corporation for National and Community Service as of September 30, 2007,
and for the year then ended. The contract required that the audit be performed in accordance
with generally accepted government auditing standards.

In its audit, Clifton Gunderson found that the Schedules present fairly, in all material respects,
the financial position of the Corporation’s National Service Trust Fund for the fiscal year ended
September 30, 2007.

Clifton Gunderson is responsible for the attached auditor’s report, dated November 8, 2007, and
the conclusion expressed therein. The Office of Inspector General does not express an opinion
on the Schedules.

Attachment

cc:
Nicola Goren, Chief of Staff
Frank Trinity, General Counsel
Elizabeth Seale, Chief Operating Officer
Jerry Bridges, Chief Financial Officer
William Anderson, Deputy CFO for Financial Management
Andrew Kleine, Deputy CFO for Planning and Program Management
Sherry Blue, Audit Resolution Coordinator
Bill Oliver, Engagement Partner, Clifton Gunderson LLP (without attachment)




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                          Senior Corps    AmeriCorps   Learn and Serve America
                                Independent Auditor’s Report


To the Inspector General
Corporation for National and Community Service


We have audited the accompanying Schedule of Financial Position of the Corporation for
National and Community Service (Corporation) National Service Trust Fund as of September 30,
2007, and the related schedules of Operations and Changes in Net Position, Budgetary Resources
and Trust Obligations for the year then ended. These schedules are the responsibility of
Corporation management. Our responsibility is to express an opinion on these schedules based
on our audit. The National Service Trust Fund Schedules of Budgetary Resources and
Obligations as of September 30, 2006, were audited by other auditors whose report dated
November 13, 2006, expressed an unqualified opinion on those schedules.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the schedules are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
schedules. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall schedule presentation. We
believe that our audit provides a reasonable basis for our opinion.

The accompanying schedules were prepared for the purpose of complying with provisions of the
Strengthen AmeriCorps Program Act (Public Law 108-45), as discussed in Note A, and is not
intended to be a presentation in conformity with accounting principles generally accepted in the
United States of America.

In our opinion, the schedules referred to above present fairly, in all material respects, the
financial position of the Corporation’s National Service Trust Fund as of September 30, 2007,
and the results of its operations and changes in net position, budgetary resources, and obligations
for the year then ended in conformity with the basis of accounting described in Note A.




11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050                                   1
fax: 301-931-1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC
In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2007, on our consideration of the Corporation’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, not to provide an
opinion on internal control over financial reporting or compliance. Those reports are an integral
part of our audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our audit.

This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should
not be used by anyone other than these specified parties.




Calverton, Maryland
November 8, 2007




                                                2
                              NATIONAL SERVICE TRUST FUND

                            SCHEDULE OF FINANCIAL POSITION
                                   as of September 30
                                          (dollars in thousands)
                                                                                              Unaudited
                                                                         2007                  2006
Assets
 Trust Fund Balance with Treasury                                    $        148         $      13,590
 Investments, carrying value                                              461,842               443,602
 Investment and interest receivable                                         3,549                 4,727
 Accounts receivable                                                            7                     4
Total Assets                                                         $    465,546         $     461,923

Liabilities
 Service Award Liability                                             $    280,597         $     266,943

Net Position
  Cumulative Results of Operations                                        184,949               194,980

Total Liabilities and Net Position                                   $    465,546         $     461,923




              The accompanying notes are an integral part of these financial schedules.
                                NATIONAL SERVICE TRUST FUND

             SCHEDULE OF OPERATIONS AND CHANGES IN NET POSITION
                         For the Period Ending September 30
                                          (dollars in thousands)
                                                                                              Unaudited
                                                                         2007                  2006
Revenues
 Appropriations                                                      $    117,720         $     138,600
 Transfer in of Program Funds                                                    -               16,269
 Interest                                                                  19,563                15,427
Total Revenues                                                            137,283               170,296

Expenses
 AmeriCorps Program                                                      (145,688)             (120,339)
 Service Learning Program                                                  (1,627)                   99
 (Writeoff) / Recovery of Receivables                                           1                   (26)
Total Expenses                                                           (147,314)             (120,266)

Excess of Revenues Over Expenses                                     $    (10,031)        $       50,030



Net Position
  Excess of Revenues Over Expenses                                   $    (10,031)        $      50,030
  Net Position, Beginning of Year                                         194,980               144,950
Net Position, End of Year                                            $    184,949         $     194,980




              The accompanying notes are an integral part of these financial schedules.
                               NATIONAL SERVICE TRUST FUND

                             SCHEDULE OF TRUST OBLIGATIONS
                                    as of September 30
                                           (dollars in thousands)


                                                                         2007                 2006
Resources
 Trust Fund Balance with Treasury                                    $        148         $     13,590
 Investments, carrying value                                              461,842              443,602
 Investment and interest receivable                                         3,549                4,727
 Accounts receivable                                                            7                    4
    Sub-total                                                             465,546              461,923
 Less investments and receivables not available for obligation             (7,629)              (7,492)
 Less Trust Reserve                                                       (46,697)             (39,767)
Total Resources                                                           411,220              414,664

Unliquidated Obligations
 President’s Freedom Scholarships                                            (994)              (1,913)
 Education Awards                                                        (383,654)            (360,220)
 Interest Forbearance                                                     (17,826)             (18,691)
Total Unliquidated Obligations                                           (402,474)            (380,824)

Commitments
  Education Awards                                                          (1,916)             (8,017)
  Interest Forbearance                                                        (103)               (433)
Total Commitments                                                           (2,019)             (8,450)

Funds Available for Obligation at September 30                       $       6,727        $     25,390




              The accompanying notes are an integral part of these financial schedules.
                              NATIONAL SERVICE TRUST FUND

                      SCHEDULE OF TRUST BUDGETARY RESOURCES
                                   as of September 30
                                          (dollars in thousands)


                                                                         2007                 2006

Funds Available for Obligation, beginning of year                    $      25,390        $      5,390

Budgetary Resources
  Appropriations
     Appropriation Received in Trust (net of rescissions)                 117,720              138,600
     Transfers in of Program Funds                                               -              16,268
        Subtotal                                                          117,720              154,868

   Deobligations
     Deobligation of President's Freedom Scholarships                             -              2,012
     Deobligation of Member Positions                                        4,557              11,773
        Subtotal                                                             4,557              13,785

   Less: Trust Reserve                                                      (6,930)             (6,930)

Total Budgetary Resources                                                 140,737              167,113

Obligations
  Education Awards                                                        (134,307)            (124,634)
  Interest Forbearance                                                      (4,255)              (6,726)
  President’s Freedom Scholarships                                          (1,626)              (1,913)
Total Obligations                                                        (140,188)            (133,273)

Net Change in Commitments
  Education Awards                                                           6,382              (8,017)
  Interest Forbearance                                                        (204)               (433)
Total Commitments                                                            6,178              (8,450)

Funds Available for Obligaton, end of year                           $       6,727        $     25,390




              The accompanying notes are an integral part of these financial schedules.
N OTES TO THE TRUST FUN D SCHED ULES

A. Basis of Accounting
The Sched u les of Finan cial Position; Op erations and Changes in N et Position; Tru st Obligations; and
Tru st Bu d getary Resou rces have been p rep ared from th e books and record s of the Corp oration in
accord ance w ith the Strengthen Am eriCorp s Program Act (Pu blic Law 108-45, 42 USC § 12605) for
the p eriod s com m encin g October 1 and end ing Sep tem ber 30, 2007 an d 2006, resp ectively.

The activities of the Tru st are fu nd ed throu gh the annu al Dep artm en ts of Labor, H ealth and H u m an
Services, and Ed u cation , and Related Agen cies Ap p rop riations Act, w hich fu nd s N ational and
Com m u nity Service Act p rogram s. Ap p rop riations are p rovid ed on a no-year basis for the Tru st, a
fu n d w ith in the Corp oration u sed to p rovid e ed u cation aw ard s and stu d en t loan interest forbearance
to eligible p articip ants. Tru st ap p rop riations d o n ot exp ire w ith the p assage of tim e and are retained
by the Corp oration in the Tru st u ntil u sed for eligible p u rp oses.

The Tru st p rovid es aw ard s for Am eriCorp s m em bers serving in ap p roved n ational service p ositions
u nd er Am eriCorp s*State and N ation al, Am eriCorp s*N CCC, an d Am eriCorp s*VISTA, as w ell as for
the Am eriCorp s Ed u cation Aw ard Program , w here sp on soring organ ization s are resp on sible for
p rovid ing m em ber su bsistence and other costs, and the Corp oration p rovid es an ed u cation aw ard
and a sm all am ou nt for ad m in istrative costs.

Fu n d s from the Tru st m ay be exp end ed for the p u rp ose of p rovid ing an ed u cation aw ard or stu d ent
loan interest forbearance paym ent and m u st alw ays be p aid d irectly to a qu alified institu tion (college,
u niversity, or oth er ap p roved ed u cational institu tion, or a lend ing institu tion hold ing an existin g
stu d ent loan) as d esign ated by the p articip ant. The Tru st m ay also exp end fu nd s for p aym e nts u nd er
the Presid ent’s Freed om Scholarship Program as au thorized u n d er variou s Corp oration
ap p rop riations throu gh fiscal 2006.

The recognition of bu d getary accou n ting transactions is essential for com p liance w ith legal con trols
over the u se of Fed eral fu nd s. Bu d getary accou n ting p rincip les are d esigned to recognize the
obligation of fu n d s u p on the establishm ent of a p rop erly d ocu m ented legal liability, w hich in m any
cases is d ifferent from the occu rrence of an accru al-based transaction .

The Strengthen A m eriCorp s Program Act d irects that, beginning w ith fiscal 2003, Tru st obligations be
record ed at the tim e th e Corp oration : (1) en ters in to an enforceable agreem ent w ith an in d ivid u al
p articip an t to serve in a p rogram carried ou t u nd er su btitle E of title I of the N ational and
Com m u nity Service Act of 1990 (42 USC § 12611 et seq.), or title I of th e Dom estic Volu nteer Service
Act of 1973 (42 USC § 4951 et seq.); or (2) aw ard s a grant to (or enters into a contract or coop erative
agreem en t w ith) an entity to carry ou t a p rogram for w h ich su ch a p osition m ay be ap p roved u nd er
section 123 of the Act (42 USC § 12573). Th e Strengthen Am eriCorp s Program Act also d irects that
the obligational am ou n t be based on the estim ated valu e of the ed u cation benefit, d iscou nted for the
estim ated enrollm ent, earning and u sage rates, an d the tim e valu e of m oney.

The Corp oration u sed the follow ing assu m p tions to calcu late Tru st obligations and bu d getary n eed s:
fu ll valu e of the ed u cation aw ard , 100 p ercent enrollm en t rate, and earning and usage rates of
ap p roxim ately 80 p ercent. Program s have u p to tw o years after aw ard to en roll m em bers in
p ositions. Fu nd s related to p osition s aw ard ed to p rogram s bu t not filled are p eriod ically d eobligated
and becom e available for aw ard for new p rogram activities. Th e Corp oration d eobligated $4.557 and
$11.773 m illion in fiscal 2007 and 2006, resp ectively, related to u nu sed p ositions.
NOTES TO THE TRUST FUND SCHEDULES - CONTINUED

B. Trust Appropriations

For fiscal year 2007 the National Service Trust received $117.720 million under the Revised
Continuing Appropriations Resolution, 2007 (Public Law 110-5). For fiscal year 2006 the Trust
received $138.6 million ($140 million less the one percent government-wide rescission included in
the Department of Defense Appropriations Act, 2006 (P.L. 109-148)) under the Departments of
Labor, Health and Human Services, and Education, and Related Agencies Appropriations Act, 2006
(P.L. 109-149). The Acts also authorized the Corporation to transfer additional amounts from
subtitle C program funds to the National Service Trust if “necessary to support the activities of
national service participants.” The Corporation transferred $16.3 million to the Trust under this
provision in fiscal 2006. No funds were transferred in fiscal 2007. The Trust portion of the 2006
NCSA rescission was transferred back to NCSA, reducing the net amount of appropriations
received by the Trust Fund during the fiscal year.

C. Trust Reserve

As required by the Strengthen AmeriCorps Program Act the Corporation sets aside in reserve a
portion of the funds appropriated to the Trust in the event that its estimates used to calculate
obligational amounts for education awards prove to be too low. In fiscals 2007 and 2006 $6.930
million was added to the reserve. The total amount held in reserve under this provision was $46.697
and $39.767 million as of September 30, 2007 and 2006, respectively.

D. Trust Awards

Since the Corporation’s inception in 1994 AmeriCorps members have earned over $1.397 billion in
education awards. The Corporation has made $905.297 million in payments to educational
institutions and student loan holders on these awards. In addition, the Corporation has made
$32.251 million in interest forbearance payments since the program ’s inception. Approximately
$108.877 million in education awards earned had expired without being used as of September 30,
2007. Payments for President’s Freedom Scholarships have totaled $21.533 million.

E.   Reclassification

Certain prior year amounts have been reclassified to conform to the current year comparative
presentation. In addition, the Corporation has added a Schedule of Financial Position and Schedule
of Operations and Changes in Net Position. These statements were not presented in the 2006 report
and therefore are marked as unaudited.
                         APPENDIX
____________________________________________________________

          CORPORATION RESPONSE TO REPORT
